App. 1
United States Court of Appeals
For The District of Columbia Circuit
No. 19-5077

September Term, 2019
1:18-c v-00356-RC
Filed On: October 3, 2019

Jerry L. Carr,
Appellant
v.
William Pelham Barr, United States
Department of Justice Attorney General,
Appellee
BEFORE: Rogers, Tatel, and Srinivasan,
Circuit Judges
ORDER
Upon consideration of the motion to appoint a spe­
cial prosecutor; the motion for summary reversal; and
the motion for summary affirmance, the opposition
thereto, and the reply, it is
ORDERED that the motion for summary reversal
be denied and the motion for summary affirmance be
granted. The merits of the parties’ positions are so
clear as to warrant summary action, See Taxpayers
Watchdog. Inc, v. Stanley. 819 F.2d 294, 297 (D.C. Cir.
1987) (per curiam). Appellant’s claims are untimely
under the applicable statutes of limitations. See Earle

App. 2
v. D.C.. 70,7 F.3d 299, 306 (D.C. Cir. 2012) (three-year
statute of limitations for actions arising under 42
U.S.C. § 1983); Loumiet v. United States. 828 F.3d 935,
947 (D.C. Cir. 2016) (three-year statute of limitations
for Bivens claims); 28 U.S.C. § 2401(b) (two-year stat­
ute of limitations for claims arising under the Federal
Tort Claims Act). It is
FURTHER ORDERED that the motion to ap­
point a special prosecutor be denied.
Pursuant to D.C. Circuit Rule 36, this disposition
will not be published. The Clerk is directed to withhold
issuance of the mandate herein until seven days after
resolution of any timely petition for rehearing or peti­
tion for rehearing en banc. See Fed. R. App. P. 41(b);
D.C. Cir. Rule 41.
Per Curiam

App. 3
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
JERRY L. CARR,
Plaintiff,

Civil Action No.:
18-356 (RC)

v.
JEFFERSON B. SESSIONS,
et al.

Re Document Nos.:
7,14

Defendants.
MEMORANDUM OPINION
(Filed Feb. 25, 2019)
Granting Defendants’ Motion to Dismiss;
Denying Plaintiff’s Motion to Amend
the Complaint
I. INTRODUCTION
Plaintiff Jerry L. Carr, proceeding pro se, brings
this action against the United States Attorney Gen­
eral, the Department of Justice, and the United States
(“collectively, the government”) seeking justice for a se­
ries of events occurring in Ohio and the District of Co­
lumbia over the last thirty years. He claims that the
federal government, a law firm, and several individu­
als have conspired to deprive him of his livelihood and
his freedom. Presently before the Court are the govern­
ment’s motion to dismiss the action and Mr. Carr’s mo­
tion to amend the complaint.

App. 4
Because this action is the latest in a series of liti­
gation campaigns waged by Mr. Carr, many of Mr.
Carr’s claims are barred by res judicata. Mr. Carr’s
claims not barred by res judicata are time barred. And
it would be futile for Mr. Carr to amend his complaint
because his proposed amendments could not survive a
motion to dismiss, for the same reasons that the cur­
rent complaint cannot survive. The Court thus grants
the government’s motion to dismiss and denies Mr.
Carr’s motion to amend.
II. FACTUAL BACKGROUND
This action traces its origins to the 1980s, when an
ill-fated dispute between Mr. Carr and his co-workers
at Champion International Corporation (“Champion”)
prompted Champion to fire Mr. Carr. See Compl. M 81,
102-03, ECF No. 1. Champion’s decision unleased Mr.
Carr upon the federal court system, through which he
has filed a series of lawsuits to defeat what he views as
a widespread conspiracy against him. See, e.g., id.
f 'll 36-41, 82-93. The latest turn in this alleged con­
spiracy has brought Mr. Carr before this Court.
To provide context for its decision, the Court will
briefly summarize Mr. Carr’s litigation history. After
Champion fired him, Mr. Carr sued Champion and
several co-workers under 42 U.S.C. § 1981. See Defs.’
Mem. Supp. Mot. Dismiss (“Defs.’ Mem.”) Ex. 1 (“Judge
Manos Order”), ECF No. 7-1.1 Having lost at trial in
1 The Court takes judicial notice of Judge Manos’s order, and
the other orders and opinions cited below, without converting the

App. 5
that action. Mr. Carr and his now-wife, a former Cham­
pion employee who was fired around the same time,
brought a second action under the Racketeer Influ­
enced and Corrupt Organizations (“RICO”) Act against
Champion, its legal counsel, Frost Brown Todd LLC
(“Frost”), and several judges, asserting that Frost over­
saw an organized crime network that extorted Mr.
Carr and his wife. See id. at 3-4; Compl. M 13-18. In
response to these filings, Judge John Manos of the
Southern District of Ohio permanently enjoined Mr.
Carr and his wife from bringing certain types of actions in federal court. See Judge Manos Order at 1011.
N

Notwithstanding Judge Manos’s Order, Mr. Carr
continued pursuing his cause, attempting to enlist the
FBI and various other federal agencies in bringing
Frost’s conspiracy to light. Compl. M 29-34,45,74-77.
These efforts were unsuccessful, however, allegedly
government’s motion to dismiss into a motion for summary judg­
ment. In considering whether a complaint adequately states a
claim, a “court may consider the facts alleged in the complaint,
documents attached thereto or incorporated therein, and matters
of which it may take judicial notice.” Stewart v. Nat’l Educ. Ass’n,
471 F.3d 169, 173 (D.C. Cir. 2006) (citing EEOC v. St. Francis
Xavier Parochial Sch., 117 F.3d 621,624-25 (D.C. Cir. 1997)). And
it is well-established that the Court may take judicial notice of
judicial opinions related to the current action. Covad Commc’ns.
Co. v. BellAtl. Corp., 407 F.3d 1220, 1222 (D.C. Cir. 2005) (noting
that a court may look to “relevant opinions upon a motion to dis­
miss” (citing Marshall Cty. Health Care Auth. v. Shalala, 988
F.2d 1221, 1228 (D.C. Cir. 1993))); Does I through III v. District of
Columbia, 238 F. Supp. 2d 212, 216-17 (D.D.C. 2002) (“[C]ourts
are allowed to take judicial notice of prior litigation.’ ” (quoting
Black v. Arthur, 18 F. Supp. 2d 1127,1131 (D. Or. 1998))).

)

App. 6
because of Frost’s control over the government. Id
M 77-78, 99-101, 103. In 2006 Mr. Carr filed another
RICO suit, this time in this jurisdiction. See Compl.,
Carr v. Frost, Brown & Todd, No. 06-cv-1893 (D.D.C.
Nov. 3, 2006), ECF No. 1 (“2006 Compl.”); Compl.
tf 36-44. Judge James Robertson concluded that the
2006 complaint was “substantially identical” to Mr.
Carr’s previous lawsuits, and he dismissed the 2006
complaint with prejudice. See Defs.’ Mem. Ex. 2 (“Judge
Robertson Order”) at 3-4, ECF No. 7-2.
Around the time of that dismissal, Mr. Carr was
interviewed by Deputy United States Marshal Joel
Kimmet and FBI Agent Terrence Moran regarding
threatening phone calls Mr. Carr allegedly made to
Judge Robertson’s chambers. See Compl., USA v. Carr,
No. 07-cr-0107 (S.D. Ohio May 1, 2007), ECF No. 2;
Compl, ff 45, 48. That investigation resulted in Mr.
Carr pleading guilty to possessing a firearm after hav­
ing been previously committed to a mental institution.
See Defs.’ Mem. Ex. 3, ECF No. 7-3, After serving his
sentence, Mr. Carr filed a motion with the Southern
District of Ohio to clear his criminal record, remove the
label of “mentally ill” from his record, and vacate Judge
Manos’s sanction. Compl. M 82-92. Judge Michael
Barrett denied the motion for lack of jurisdiction. See
Defs.’ Mem. Ex. 4 (“Judge Barrett Order”), ECF No. 74. Mr. Carr appealed that order to the Sixth Circuit,
which affirmed Judge Barrett’s decision. See Defs.’
Mem. Ex. 5, ECF No. 7-5.
Finally, Mr. Carr filed this action in early-2018, re­
counting the events above as pieces in a large-scale

App. 7
conspiracy, led by Frost, to deprive him of his constitu­
tional rights. See generally Compl. He sues under var­
ious federal statutes, both civil and criminal,2 alleging
that the government failed to properly supervise the
federal agents involved in the alleged conspiracy over
the past thirty odd years, and failed to protect Mr.
Carr’s constitutional rights. The government has
moved to dismiss the action under Federal Rule of Civil
Procedure 12(b)(6), arguing, in part, that the complaint
is barred by res judicata, and that any claims not
barred by res judicata are time barred under the appli­
cable statutes of limitations.3 See generally Defs.’ Mot.
Dismiss, ECF No. 7. After the government filed its mo­
tion to dismiss, Mr. Carr moved to add intentional tort
claims to his complaint. See Pl.’s Mot. Amend at 1, ECF
No. 14. Both motions are ripe for the Court’s review.

2 The Court encountered some difficulty in determining
which statutes underlie Mr. Carr’s action, given the complaint’s
scattershot use of statutory citations. Because the Court must
construe pro se complaints liberally, see Brown v. Whole Foods
Mkt. Grp., Inc., 789 F.3d 146,150-52 (D.C. Cir. 2015); Atherton v.
D.C. Office of Mayor, 567 F.3d 672, 681 (D.C. Cir. 2009), it will
make generous inferences in identifying appropriate causes of ac­
tion for Mr. Carr’s allegations.
3 Mr. Carr filed an additional memorandum on September
13, 2018, informing the Court that Frost had recently hired a for­
mer Department of Justice prosecutor as a senior associate. See
Mem. at 1-2, ECF No. 11. Upon review of the memorandum, the
Court finds it irrelevant to Mr. Carr’s legal claims against the
government defendants named in this action.

App. 8
III. LEGAL STANDARD
A. Federal Rule 12(b)(6)
To survive a motion to dismiss under Federal Rule
12(b)(6), a complaint must contain sufficient factual
matter, accepted as true, to “state a claim to relief that
is plausible on its face,” Ashcroft v. Iqbal, 556 U.S. 662,
678 (2009) (quoting Bell Atl. Corp. v. Twombly. 550 U.S.
544,570 (2007)). The plaintiff’s right to relief must rise
above the “speculative level,” Twombly, 550 U.S. at
555-56. “Threadbare recitals of the elements of a cause
of action, supported by mere conclusory statements,”
are therefore insufficient to withstand a motion to dis­
miss. Iqbal, 556 U.S. at 678. A court need not accept a
plaintiff’s legal conclusions as true, see id., nor must a
court presume the veracity of legal conclusions that
are couched as factual allegations. See Twombly, 550
U.S. at 555.
This Court construes pro se complaints liberally.
Atherton u. D.C. Office of Mayor, 567 F.3d 672,681 (D.C.
Cir. 2009). Thus, Mr. Carr’s complaint “must be held to
less stringent standards than formal pleadings drafted
by lawyers.” Id. (quoting Erickson v. Pardus, 551 U.S.
89, 94 (2007)). Even under this liberal standard, a pro
se complainant must plead facts that allow the Court
to infer “more than the mere possibility of misconduct.”
Id. at 681-82 (quoting Iqbal, 556 U.S. at 679). A court
considering a pro se plaintiff’s complaint should look
to “all filings, including filings responsive to a motion
to dismiss.” Brown v. Whole Foods Mkt Grp., Inc., 789
F.3d 146, 152 (D.C. Cir. 2015), to discern whether the

A

App. 9
plaintiff has “‘nudged [his] claim[s] across the line
from conceivable to plausible.’ ” Id. (quoting Twombly,
550 U.S. at 570). “The Court need not,” however, “as­
sume the role of the pro se plaintiff’s advocate.” Mehrbach v. Citibank, NA., 316 F. Supp. 3d 264, 268 (D.D.C.
2018). It need not stalk the record to find support for
Mr. Carr’s claims. Sun v. D.C. Gov't, 133 F. Supp. 3d
153,168 n.6 (D.D.C. 2015).
B. Federal Rule 15(a)
Federal Rule of Civil Procedure 15(a) permits a
plaintiff to amend his complaint once as a matter of
course within 21 days of serving it or within 21 days of
the filing of a responsive pleading or Rule 12(b) motion.
See Fed. R. Civ. P. 15(a)(1). Otherwise, the plaintiff may
amend his pleading only with the opposing party’s
written consent—which has been denied in this case—
or the Court’s leave. Fed. R. Civ. P. 15(a)(2).
“The decision to grant or deny leave to amend . . .
is vested in the sound discretion of the trial court.”
Commodore-Mensah v. Delta Air Lines, Inc., 842 F.
Supp. 2d 50, 52 (D.D.C. 2012) (citing Doe v. McMillan,
566 F.2d 713, 720 (D.C. Cir. 1977)). And Rule 15 in­
structs courts to “freely give leave when justice so re­
quires.” Fed. R. Civ. P. 15(a)(2); see also Belizan v.
Hershon, 434 F.3d 579,582 (D.C. Cir. 2006) (explaining
that Rule 15 “is to be construed liberally”). “[L]eave to
amend is particularly appropriate when a plaintiff
proceeds pro se” Moore v. Agency for Int’l Dev., 994
F.2d 874, 877 (D.C. Cir. 1993). Generous standard

App. 10
notwithstanding, courts may deny leave to amend for
such reasons as “undue delay, bad faith or dilatory mo­
tive on the part of the movant, repeated failure to cure
deficiencies by amendments previously allowed, undue
prejudice to the opposing party by virtue of allowance
of the amendment, [or] futility of amendment.” Foman
v. Davis, 371 U.S. 178,182 (1962).
IV. ANALYSIS
The government argues that Mr. Carr’s complaint
should be dismissed because, among other reasons, Mr.
Carr’s claims are barred by res judicata and the appli­
cable statutes of limitations. The government argues
that Mr. Carr’s proposed complaint amendments
should be rejected for the same reasons. The Court
agrees for the reasons stated below, and it therefore
dismisses Mr. Carr’s action and denies his motion to
amend the complaint.
A. Res Judicata
“Under the doctrine of res judicata, ‘a final judg­
ment on the merits of an action precludes the parties
or their privies from relitigating issues that were or
could have been raised in that action.’ ” Ashbourne v.
Hansberry, 245 F. Supp. 3d 99, 103 (D.D.C. 2017) (em­
phasis in original) (quoting Drake v. FAA, 291 F.3d 59,
66 (D.C. Cir. 2002)). The doctrine applies if a previous
action “(1) involv[ed] the same claims or cause of action
[as the current action], (2) between the same parties
or their privies, and (3) there has been a final, valid

App. 11
judgment on the merits, (4) by a court of competent ju­
risdiction.” Smalls v. United States, 471 F.3d 186, 192
(D.C. Cir. 2006) (citing Blonder-Tongue Labs, Inc. v.
Univ. of 111. Found., 402 U.S. 313, 323-24 (1971);
Comm’r of Internal Revenue v. Sunnen, 333 U.S. 591,
597 (1948)). Whether two cases involve the same cause
of action is determined by “whether they share the
same ‘nucleus of facts.’ ” Ashbourne, 245 Supp. 3d at
103-04 (quoting Drake, 291 F.3d at 66). And whether
two cases share the same nucleus of facts depends on
“the facts surrounding the transaction or occurrence
which operate to constitute the cause of action, not the
legal theory upon which a litigant relies.” Page v.
United States, 729 F.2d 818, 820 (D.C. Cir. 1984).
“Res judicata may be raised in a 12(b)(6) motion to
dismiss for failure to state a claim when the defense
appears on the face of the complaint and any materials
of which the court may take judicial notice.” Middleton
v. DOL., 318 F. Supp. 3d 81, 86 (D.D.C. 2018) (quoting
Sheppard v. District of Columbia, 791 F.Supp.2d 1, 5
n.3 (D.D.C. 2011)); see also Hemphill v. Kimberly-Clark
Corp., 530 F. Supp. 2d 108, 111 (D.D.C. 2008). And as
noted above, the Court may take judicial notice of
opinions and orders from other proceedings. Covad
Commc’ns, Co. v. Bell Atl. Corp., 407 F.3d 1220, 1222
(D.C. Cir. 2005); Does I through III v. District of Colum­
bia, 238 F. Supp. 2d 212, 216-17 (D.D.C. 2002).
According to the government, Judge Robertson’s
2007 dismissal of Mr. Carr’s 2006 complaint and Judge
Barrett’s 2011 denial of Mr. Carr’s motion to clear his
record bar Mr. Carr’s current action under res judicata

App. 12
because “nothing about [his] [current] [c]omplaint is
new.” Defs.’ Mem. at 11. The government is correct in
part. While Judge Robertson’s 2007 decision has res ju­
dicata effect on Mr. Carr’s current claims arising from
pre-2007 conduct, Judge Barrett’s 2011 decision does
not.
Res judicata requires a final, valid judgment on
the merits. Smalls, 471 F.3d at 192. And it is wellestablished that dismissal with prejudice pursuant to
a 12(b)(6) motion constitutes a final judgment. See id.;
Haase u. Sessions, 835 F.2d 902, 906 (D.C. Cir. 1987).
Judge Robertson’s 2007 decision was such a dismissal.
See Judge Robertson Order at 4. On the other hand,
“[a] dismissal for lack of subject matter jurisdiction
does not constitute adjudication on the merits with
claim preclusive effect.” Gresham v. District of Colum­
bia, 66 F. Supp. 3d 178,194 (D.D.C. 2014) (citing Miller
v. Saxbe, 396 F. Supp. 1260,1261 (D.D.C. 1975)). Judge
Barrett’s 2011 decision denied Mr. Carr’s motion on ju­
risdictional grounds, so it does not have res judicata
effect. See Judge Barrett Order.
Res judicata’s application here is thus limited to
conduct addressed by Judge Robertson’s 2007 decision.
That decision disposed of Mr. Carr’s claims arising
from conduct that occurred before November 3, 2006,
when Mr. Carr filed his suit. See generally 2006 Compl.
The question, then, is whether Mr. Carr’s 2006 com­
plaint (I) involved the same claims or causes of ac­
tion—the same “nucleus of facts”—as the current
action; and (2) implicated the same parties or their
privies. Smalls, 471 F.3d at 192. The answer is yes.

App. 13
Mr. Carr’s 2006 complaint and the current com­
plaint share the same nucleus of facts. The 2006 com­
plaint alleged violations of Mr. Carr’s rights based on
actions and events largely the same, if not identical, to
the ones challenged in his current complaint. See gen­
erally Judge Robertson Order; 2006 Compl. Both com­
plaints proffer the alleged Frost conspiracy as their
central theory, arguing that Frost controlled the fed­
eral law enforcement apparatus and, using that appa­
ratus as a shield, harmed Mr. Carr in various ways. See
2006 Compl. at 19-21; Compl. (fl<l[ 77-78. More specifi­
cally, for instance, both complaints claim that Mr. Carr
was unlawfully imprisoned in a mental institution be­
cause Roger Fisher, a psychologist alleged to be in
Frost’s pocket, swore false statements against Mr.
Carr. See 2006 Compl. at 8, 14-15; Compl. ‘Jl'fl 19-23.
And both complaints assert that the Department of
Justice and the FBI have taken a “corrupt position” visa-vis Mr. Carr and his battle against Frost’s conspiracy.
See 2006 Compl. at 20; Compl. f 82. The only signifi­
cant difference between the two complaints appears to
be the parties named as defendants, and those defend­
ants are in privity with each other.4
“[0]ne in privity with another is said to be one ‘so
identified in interest with a party to former litigation
that he represents precisely the same legal right in
respect to the subject matter involved.’ ” Gresham, 66
4 Mr. Carr’s 2006 complaint did not explicitly name the De­
partment of Justice as a defendant, but it did raise allegations
against the “U.S. Dept, of Justice” arising from the agency’s al­
leged participation in Frost’s conspiracy. See 2006 Compl. at 19.

App. 14
F. Supp. 3d at 192 (quoting Jefferson Sch. ofSoc. Sci. u.
Subversive Activities Control Bd., 331 F.2d 76, 83 (D.C.
Cir. 1963)). The 2006 complaint named two Depart­
ment of Justice officials, three FBI Agents, and one IRS
Agent as defendants. See 2006 Compl. at 1-2. The
current complaint names the Attorney General, the
Department of Justice, and the United States as de­
fendants, claiming that they were responsible for ac­
tions taken by certain individual federal officials. See
Pl.’s Opp’n Mot. Dismiss at 52-53, ECF No. 9.5 It is
well-established in this jurisdiction that, for res judi­
cata purposes, the government, its agencies, and its of­
ficers are in privity with one another. See Sczygelski v.
U.S. Office of Special Counsel, 926 F. Supp. 2d 238,24445 (D.D.C. 2013); McIntyre v. Fulwood, 892 F. Supp. 2d
209, 215 (D.D.C. 2012). Thus, the current defendants
are in privity with the 2006 defendants. Gresham, 66
F. Supp. 3d at 193. Because Judge Robertson’s 2007
decision was a final judgment on the merits regarding
a complaint that shares the same nucleus of facts
with the current complaint, along with parties in
privity with the current parties, Mr. Carr’s current
claims regarding pre-2007 conduct are barred by res
judicata.

5 Mr. Carr’s voluminous opposition filing does not contain
page numbers. For ease of reference, when referring to this filing
the Court cites the page numbers designated by ECF.

App. 15
B. Statute of Limitations
Having disposed or Mr. Carr’s claims arising from
conduct that occurred before November 3, 2006, the
Court now considers Mr. Carr’s claims regarding con­
duct that occurred after that date. See Page, 729 F.2d
at 820 (refusing to dismiss the plaintiff’s complaint on
res judicata grounds for conduct that occurred after
the district court’s previous order). Mr. Carr seems to
make three general accusations not previously liti­
gated. First, Mr. Carr claims that United States Mar­
shal Joel Kimmet made false assertions in his probable
cause statement underlying Mr. Carr’s 2007 arrest and
indictment. See Compl. (|[<JI 63-67; id, Ex. 23, ECF No.
1-1 at 203-21.6 Second, Mr. Carr claims that United
States Marshals and FBI Agents, specifically Marshal
Kimmet and FBI Agent Terrence Moran, threatened
Mr. Carr’s life around the time of his 2007 arrest and
2008 motion to vacate Judge Manos’s 1991 Order. See
Compl.
48, 82, 99(A). Third, Mr. Carr claims that
Assistant United States Attorney (“AUSA”) Leslie Wil­
liams acted illegally during Mr. Carr’s Sixth Circuit ap­
peal of Judge Barrett’s 2011 Order. See Compl. U 93.
The precise nature of AUSA William’s allegedly illegal
conduct is difficult to understand from the complaint,
but Mr. Carr’s main thrust seems to be that AUSA
Williams “cover [ed] for” the parties that allegedly con­
spired to deny Mr. Carr his constitutional rights. Id.;
6 Mr. Carr’s complaint exhibits were filed together in one at­
tachment that does not contain page numbers. As with Mr. Carr’s
opposition filing, when referring to the complaint exhibits the
Court cites the page numbers designated by ECF.

App. 16
see also Pl.’s Opp’n at 49 (“Leslie Williams again lies
and cover [sic] the criminal activity by the D.O.J.”).7
Mr. Carr asserts that the Attorney General, the
Department of Justice, and the United States are re­
sponsible for those alleged illegal acts because “the
D.O.J. [] is the [t]op [l]aw enforcement agency in the
United States” and “Jeff Sessions is over [t] op of the
D.O.J.” See Pis.’ Opp’n at 53. Thus, a fair reading of Mr.
Carr’s complaint is that the Attorney General, the De­
partment of Justice, and the United States illegally
“fail[ed] to protect [Mr. Carr’s] [constitutional [r]ights”
from the alleged abuses of their employees and subor­
dinates. Id. The government argues that, however the
complaint is read, Mr. Carr’s remaining claims must

7 Along with those three accusations, Mr. Carr vaguely al­
leges that Judge Robertson acted improperly during Mr. Carr’s
2006 action. See Compl. M 39-44, 78, 110. However, Mr. Carr
specifically brings this allegation under 18 U.S.C. § 242, which
criminally punishes individuals who deprive others of their rights
under color of law. Compl. H 78. Because Mr. Carr has no private
right of action under criminal statutes, Masoud v. Suliman, 816
F. Supp. 2d 77, 80 (D.D.C. 2011), he has failed to state a claim
upon which relief may be granted. Judge Manos’s 1991 Order,
moreover, enjoins Mr. Carr “from filing in any court, an action
against any state or federal judge, or any officer or employee of
any court, for actions taken in the course of their official duties.”
Judge Manos’s Order at 10-11. Judge Manos’s Order thus bars
Mr. Carr’s claims against Judge Robertson and any other judge
named in the complaint. Finally, Judge Robertson would be cov­
ered by judicial immunity for any such claim. See Atherton, 567
F.3d at 682 (“[J]udges ‘are not liable to civil actions for their judi­
cial acts, even when such acts are in excess of their jurisdiction,
and are alleged to have been done maliciously or corruptly, i a
(quoting Bradley v. Fisher, 80 U.S. (13 Wall.) 335, 351 (1871))).

App. 17
be dismissed because they are barred by the applicable
statutes of limitations. The Court agrees.
Federal Rule 12(b)(6) is the appropriate “vehicle
for asserting the affirmative defense of statutory time
limitation.” Pearl u. Latham & Watkins LLP, 985
F. Supp. 2d 72, 80 (D.D.C. 2013). However, “[b]ecause
statute of limitations issues often depend on contested
questions of fact, dismissal is appropriate only if the
complaint on its face is conclusively time-barred.”
Moldea u. Ovitz, No. 18-cv-0560,2019 WL 465004, at *3
(D.D.C. Feb. 6, 2019) (quoting Bregman v. Perles, 747
F.3d 875-76 (D.C. Cir. 2014)). Thus, the complaint’s al­
legations themselves must “show that relief is barred
by the applicable statute of limitations.” Jones v. Bock,
549 U.S. 199, 215 (2007); Wash. Metro. Area TYansit
Auth. v. Ark Union Station, 268 F. Supp. 3d 196, 203
(D.D.C. 2017); Coulibaly u. Tillerson, 278 F. Supp. 3d
294, 300 (D.D.C. 2017). That is the case here.
Before addressing Mr. Carr’s claims, the Court
must determine which statute or statutes of limita­
tions apply to them. Again, the scattershot nature of
Mr. Carr’s complaint makes this no easy task. Most of
the statutes Mr. Carr cites are federal criminal stat­
utes that provide him no private right of action. See.
Compl. at 2; see also Masowd u. Suliman, 816 F. Supp.
2d 77, 80 (D.D.C. 2011) (“[C]riminal statutes, however,
do not and cannot provide the basis for [a] plaintiff’s
civil causes of actions.”). The civil statute Mr. Carr cites
most is 42 U.S.C. § 1983. See Compl. at 2-3. With minor
exceptions not present here, § 1983 is inapplicable to
federal officials. See Williams v. United States, 396 F.3d

App. 18
412, 414-16 (D.C. Cir. 2005). Drawing all inferences in
favor or the pro se plaintiff, however, the Court will an­
alyze the statute of limitations question under the
analogous Bivens doctrine, which applies to federal
agents in their individual capacities.8 See Berry v.
Funk, 146 F.3d 1003,1013 (D.C. Cir. 1998); see also Pl.’s
Mot. Amend at 11 (“[T]he Bivens action should apply
in this case.”).9

8 The complaint does not name any individuals as defend­
ants in their individual capacities (Attorney General Sessions
was not Attorney General during the relevant period, and thus
must be named in his official capacity). That said, the Court lib­
erally interprets the complaint as lodging claims against the gov­
ernment officials named in its body, specifically Marshal Kimmet,
Agent Moran, and Ms. Williams, among others. However, individ­
ual defendants must be served in their individual capacities. See
Fed. R. Civ. P. 4(i)(3); Wilson u. U.S. Park Police, 300 F.R.D. 606,
608 (D.D.C. 2014) (“When an officer or employee of the govern­
ment is sued in his or her individual capacity . . . personal service
on the officer or employee is required.”). There is no indication
that any of those individuals have been served in any capacity,
individual or otherwise. And even if they were served, Mr. Carr’s
claims against them would be time barred for the reasons set out
below.
9 Bivens claims are not available against federal agencies or
the United States. See Iqbal, 556 U.S. at 676; Corr. Servs. Corp.
v. Maestro, 534 U.S. 61, 72 (2001); FDIC v. Meyer, 510 U.S. 471,
477-78 (1994); Abdelfattah v. DHS, 787 F.3d 524, 534 (D.C. Cir.
2015). And the United States has not consented to be sued for
money damages arising from its employees’ alleged constitutional
violations. See Meyer, 510 U.S. at 476-78; Epps v. U.S. Att’y Gen.,
575 F. Supp. 2d 232, 238 (D.D.C. 2008) (stating that the Federal
Tort Claims Act “does not waive sovereign immunity for constitu­
tional torts” (citations omitted)). Mr. Carr is thus barred from
seeking damages from the Department of Justice or the United
States.

App. 19
The appropriate limitations period for a Bivens
claim is dictated by the relevant personal injury stat­
utes in the jurisdiction in which the conduct at issue
occurred. See Lewis v. Bayh, 577 F. Supp. 2d 47, 51-52
(D.D.C. 2008). The alleged conduct here occurred in
both Ohio and the District of Columbia. However, as
noted, Mr. Carr suggests in his opposition brief that the
central issue in this case is the failure of the Attorney
General, the Department of Justice, and the United
States to adequately supervise their employees and
subordinates. See Pl.’s Opp’n at 53 (“I am suing the
D.O.J. for failure to protect my constitutional rights
and Attorney General Jeff Session [s] is the Attorney
General over top of the D.O.J.”). Because the govern­
ment defendants are based in the District of Columbia,
District of Columbia law governs. And [i]n the context
of a Bivens action claiming the deprivation of constitu­
tional rights, the D.C. Circuit has instructed that D.C.
Code § 12-301 provides the relevant limitations pe­
riod”: Three years at most. Richardson v. Sauls, 319
F. Supp. 3d 52, 67 (D.D.C. 2018) (citing Zhao v. Un­
known Agent. of CIA, 411 F. App’x 336, 336-37 (D.C.
Cir. 2010)); see also D.C. Code § 12-301(8) (providing a
three-year limitations period for actions “for which a
limitation is not otherwise specially prescribed”).10
10 Ultimately, it makes no difference whether District of
Columbia or Ohio law is the appropriate source for the Court’s
statute of limitations analysis. Under Ohio law, Bivens cases are
governed by the two-year limitations period found in Ohio Code
§ 2305.10. See Browning v. Pendleton, 869 F.2d 989, 906 (6th Cir.
1989). This time frame is even less forgiving than the District of
Columbia’s three-year period.

App. 20
Next, the Court must determine when Mr. Carr’s
claims accrued. In most circumstances, courts apply
the “standard rule,” which states that the limitations
period begins when a potential plaintiff has a “com­
plete and present cause of action.” Bay Area Laundry
& Dry Cleaning Pension Tr. Fund v. Ferbar Corp. of
Cal., 522 U.S. 192,201 (1997) (quotingRawlings v. Ray,
312 U.S. 96, 98 (1941)). In certain circumstances, how­
ever, a court applies the “discovery rule,” under which
the limitations period begins only when “the plaintiff
discovers, or through due diligence should have discov­
ered, the injury supporting the legal claim. Coulibaly,
278 F. Supp. 3d at 300 (quoting Lattisaw v.,District of
Columbia, 18 F. Supp. 3d 142, 157 (D.D.C. 2015)); see
also Barbaro v. U.S. ex rel. Fed. Bureau of Prisons FCI
Otisville, 521F. Supp. 2d 276,280 (S.D.N.Y. 2007) (“The
discovery rule . . . governs Bivens actions.” (citing Paige
v. Police Dep’t of Schenectady, 264 F.3d 197,200 (2d Cir.
2001); Kronisch v. United States, 150 F.3d 112,123 (2d
Cir. 1998))). The Court need not decide which rule ap­
plies here, because Mr. Carr’s claims are barred under
either.
The limitations period for Mr. Carr’s claims
arising from Marshal Kimmet’s allegedly false state­
ments began on or around May 1, 2007, when Marshal
Kimmet submitted his statement of probable cause.
See Compl. Ex. 23, ECF No. 1-1 at 203-21.11 The
11 Although Mr. Carr may not have learned about the alleg­
edly false statements on the day they were submitted, the record
indicates that he was informed of these statements over the fol­
lowing months. See Compl. Ex. 23 (containing the docket

App. 21
limitations period for Mr. Carr’s claims arising from
the alleged threats made by the Marshals and FBI
Agents began shortly after, when Mr. Carr states the
threats were made. See Compl. f 82 (stating that
around March 1, 2008, “US Marshal Joel J. Kimmet,
Special F.B.I. Agent Terrence Moran, both threatened
Mr. Carr’s life.”). And the limitations period for Mr.
Carr’s claims arising from Ms. Williams’s alleged ille­
gal conduct began in March 2012, when Ms. Williams
filed her Sixth Circuit brief. See Br. for Appellee,
United States v. Carr, No. 11-4199 (6th Cir. Mar. 2,
2012). Because that alleged conduct took place at least
six years ago, well outside the three-year statutory pe­
riods, Mr. Carr’s claims arising from post-2006 conduct
are time barred. The Court thus dismisses those claims
under Federal Rule 12(b)(6).
C. Mr. Carr’s Motion to Amend
Finally, the Court turns to Mr. Carr’s motion to
amend the complaint to add intentional tort claims
under the Federal Tort Claims Act (“FTCA”), 28 U.S.C.
§1346(b), not raised in his initial complaint. See Pl.’s
Mot. Amend at 1. The government argues that Mr.
Carr’s motion to amend his complaint should be denied
for futility. “Denial of leave to amend based on futility
summary of Mr. Carr’s criminal case, USA v. Carr, No. 07-cr-0107
(S.D. Ohio 2007), including references to a May 3,2007 hearing
during which Mr. Carr was “informed of his rights and the
charges against him,” the July 17, 2007 unsealing of the govern­
ment’s complaint containing the allegedly false statements, and a
July 17, 2007 probable cause hearing), ECF No. 1-1 at 217-21.

App. 22
is warranted if the proposed claim would not survive a
motion to dismiss.” Onyewuchi v. Gonzalez, 267 F.R.D.
417, 420 (D.D.C. 2010) (citing James Madison Ltd. v.
Ludwig, 82 F.3d 1085, 1099 (D.C. Cir. 1996)); see also
Williams v. Lew, 819 F.3d 466, 471 (D.C. Cir. 2016). In
other words, “review for futility ‘is, for practical pur­
poses, identical to review of a Rule 12(b)(6)’ motion to
dismiss.” Driscoll v. George Washington Univ., 42
F. Supp. 3d 52, 57 (D.D.C. 2012) (quoting In re Inter­
bank Funding Corp. Sec. Litig, 629 F.3d 213, 215-16
(D.C. Cir. 2010)).
Even applying the liberal pro se pleading stan­
dards, Mr. Carr’s proposed amendment would not sur­
vive a motion to dismiss. Mr. Carr’s proposed inten­
tional tort claims challenge the same conduct by the
same actors challenged in the initial complaint, and
suffer from the same defects as that complaint.12 Thus,
Mr. Carr’s proposed intentional tort claims arising

12 In addition to the reasons laid out below, Mr. Carr’s pro­
posed complaint amendment cannot avoid the government’s sov­
ereign immunity. Although Mr. Carr characterizes his proposed
claims as “intentional torts” under the FTCA, see Pis. Mot. to
Amend at 1, in large part those claims are still based on alleged
constitutional violations, see id. at 11 (stating that in March 2007,
Mr. Carr was “taken at gunpoint by over [twenty-five] federal
agents . . . was not read [his] Miranda rights,” and “did not talk
to an [attorney for [nine] months of incarceration.”). Again, sov­
ereign immunity shields the United States from money damages
arising from its own alleged constitutional violations and those of
its agencies and its employees in their official capacities; immun­
ity that the FTCA does not waive. See Epps, 575 F. Supp. 2d at
238.

App. 23
from pre-2007 conduct are barred by res judicata,13
And Mr. Carr’s proposed intentional tort claims arising
from more recent conduct are subject to the two-year
statute of limitations established by the FTCA. See 28
U.S.C. § 2401(b) (“A tort claim against the United
States shall be forever barred unless it is presented
in writing to the appropriate Federal agency within
two years after such claim accrues
.”). They are time
barred for the reasons stated above.14 Because Mr.
Carr’s proposed complaint amendment would not sur­
vive a motion to dismiss, the court denies Mr. Carr’s
motion to amend as futile.
V. CONCLUSION
For the foregoing reasons, the Court hereby OR­
DERS that the government’s Motion to Dismiss
(ECF No. 7) is GRANTED and Mr. Carr’s Motion to
Amend the Complaint (ECF No. 14) is DENIED. The
Court FURTHER ORDERS that this action is
13 Even if Mr. Carr did not assert identical intentional tort
claims in his 2006 complaint, res judicata still applies because
Mr. Carr could have raised those claims in 2006. See Ashbourne,
245 F. Supp. 3d at 104 (barring the plaintiffs claims under res
judicata, [although [the plaintiff] [] pursued different legal
claims . . . than” in the earlier matter, because the claims shared
the same nucleus of facts).
14 In addition, 28 U.S.C. § 2675 requires that, prior to filing
an FTCA suit against the federal government or a federal agency,
a plaintiff “present [] the claim to the appropriate [f]ederal
agency.” This requirement is jurisdictional. See Jackson v. United
States, 730 F.2d 808, 809 (D.C. Cir. 1984). Mr. Carr has not
demonstrated that he made such a demand before seeking to
amend his complaint to add FTCA claims.

App. 24
DISMISSED WITH PREJUDICE. An order con­
sistent with this Memorandum Opinion is separately
and contemporaneously issued.
Dated: February 25,2019 RUDOLPH CONTRERAS
United States District Judge

App. 25
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
JERRY L. CARR,
Plaintiff,

Civil Action No.:
18-356 (RC)

v.
JEFFERSON B. SESSIONS,
et al.

Re Document Nos.:
7,14

Defendants.
ORDER
(Filed Feb. 25, 2019)
Granting Defendants’ Motion to Dismiss;
Denying Plaintiff’s Motion to Amend
the Complaint
For the reasons stated in the Court’s Memoran­
dum Opinion separately and contemporaneously is­
sued, it is hereby ORDERED that the government’s
Motion to Dismiss (ECF No 7) is GRANTED and Mr.
Carr’s Motion to Amend the Complaint (ECF No 14) is
DENIED. It is FURTHER ORDERED that this ac­
tion is DISMISSED WITH PREJUDICE
THIS IS A FINAL APPEALABLE ORDER. SO
ORDERED.
Dated: February 25,2019 RUDOLPH CONTRERAS
United States District Judge

App. 26
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF OHIO
WESTERN DIVISION
United States of America,
Plaintiff,

Case No. l:07-cr-00107

v.

Judge Michael R. Barrett

Jerry L. Carr,
Defendant
ORDER
This matter is before the Court on Jerry Carr’s pro
se Motion to Clear Defendant’s Record, Remove Label
of Mentally Ill, and Vacate Judge Manos’s Sanction
(Doc. 53). The Court held a hearing as to Mr. Carr’s mo­
tion on August 4, 2011. After hearing from Mr. Carr.
and considering the issues raised in his motion and ex­
hibit book, the Court finds that Mr. Carr’s requests are
better suited for another forum. This Court is without
jurisdiction to address the specific allegations raised
by Mr. Carr, as each complaint is subject to separate
state or federal remedies which Mr. Carr must petition
in the appropriate forums. Therefore, Mr. Carr’s mo­
tion is DENIED.
IT IS SO ORDERED.
s/ Michael R. Barrett
Michael R. Barrett
United States District Judge

App. 27
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
JERRY L. CARR, et al.,
Plaintiffs,
v.
FROST, BROWN & TODD,
et al.,

Civil Action No
06-1893 (JR)

Defendants.
ORDER
For the reasons stated in the accompanying mem­
orandum, the complaint in this action is dismissed
with prejudice. The Clerk is directed to certify a copy
of the record to the United States District Court for the
Northern District of Ohio for such consideration as it
may wish to give to whether the filing and prosecution
of this case was a contemptuous violation of that
Court’s order of July 10,1991 in case no. C2-90-360.
JAMES ROBERTSON
United States District Judge

App. 28
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF OHIO
EASTERN DIVISION
SHARON RENNICK
JERRY CARR,
Plaintiffs,
v.

STATE OF OHIO
ATTORNEY GENERAL,

) CASE NO. C2-90-J60
)
)
)
)
)
)

Judge John M. Manos

ORDER

ANTHONY CALABRESE, ) (Filed Jul. 10, 1991)
)
et al.,
Defendants.

)
)

Pursuant to the Memorandum of Opinion issued
in the above-captioned case this date, plaintiffs’ motion
to. amend the complaint is denied; the case is dis­
missed, and the motion to bar further litigation is
granted. Plaintiffs are permanently enjoined from fil­
ing any action in the United States District Court for
the Southern District of Ohio without obtaining leave
of the court. They are further enjoined from filing in
any court, an action against any state or federal judge,
or any officer or employee of any court, for actions
taken in the course of their official duties. In seeking
leave of court, plaintiffs must file a motion certifying

App. 29
that the new complaint was never previously dis­
missed on the merits.
IT IS SO ORDERED.
/s/

John M. Manos
UNITED STATES DISTRICT JUDGE

